Report No. D-2009-086           June 9, 2009




         Controls Over the Contractor
        Common Access Card Life Cycle
           in the Republic of Korea
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CAC                           Common Access Card
CVS                           Contractor Verification System
DEERS                         Defense Enrollment Eligibility and Reporting System
DMDC                          Defense Manpower Data Center
DoD IG                        Department of Defense Inspector General
FKAQ                          USFK Assistant Chief of Staff, Acquisition Management
GS                            General Schedule
JPAS                          Joint Personnel Adjudication System
NACI                          National Agency Check with Inquiries
RAPIDS                        Real-Time Automated Personnel Identification System
RO                            Responsible Officer
SOFA                          Status of Forces Agreement
TA                            Trusted Agent
TASM                          Trusted Agent Security Manager
USD(P&R)                      Under Secretary of Defense for Personnel and Readiness
USFK                          United States Forces Korea
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704




                                                                              June 9, 2009


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                AND READINESS
               COMMANDER, UNITED STATES FORCES KOREA
               DIRECTOR, DEFENSE MANPOWER DATA CENTER

SUBJECT: Controls Over the Contractor Common Access Card Life Cycle in the
         Republic of Korea (Report No. D-2009-086)


We are providing this report for review and comment. We considered comments on a
draft of this report from the Director, Defense Manpower Data Center in preparing the
final report. This report is the second in a series on controls over Common Access Cards
for contractors.

The Commander, United States Forces Korea did not provide comments on the draft
report. DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request the Commander to provide comments on the [mal report by July 9, 2009.

Copies of your comments must have the actual signature of the authorizing official for
your organization. We are unable to accept the / Signed / symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).



                                             r~/~
                                             PaulParanetto
                                             Principal Assistant Inspector General
                                             for Auditing
Report No. D-2009-086 (Project No. D2007-D000LA-0199.003)                             June 9, 2009


               Results in Brief: Controls Over the
               Contractor Common Access Card Life Cycle
               in the Republic of Korea

What We Did                                              What We Recommend
We determined whether controls over Common               The Commander, United States Forces Korea
Access Cards (CACs) provided to contractors in           should improve and issue additional guidance to
Korea are in place and working as intended.              ensure that an appropriate Responsible Officer
Specifically, we evaluated whether DoD                   is selected, that all contractors requiring a CAC
officials approved and periodically reverified           to work in Korea obtain approval from the
the need for CACs using the Contractor                   United States Forces Korea Acquisition
Verification System (CVS) and issued and                 Management Office, that CAC expiration dates
recovered CACs in accordance with DoD                    are consistent with supporting documentation,
policies and procedures. Information from the            that personnel approving CACs verify the
Defense Manpower Data Center indicated there             initiation of background checks, and that
were approximately 2,300 contractors with                terminated CACs are properly recovered.
active CACs issued in Korea as of August 31,
2008. This report is the second in a series on           The Director, Defense Manpower Data Center
CACs issued to contractors.                              should establish system controls to prevent CVS
                                                         operators from sponsoring contractors until the
What We Found                                            operators have taken the required training, and
Although supporting documentation for CACs               clarify guidance on the types of identification
issued to contractors in Korea was generally             cards to issue.
available, we identified the following internal
control weaknesses and areas where additional            Recommendations in DoD Inspector General
guidance could improve the administration of             Report D-2009-005, “Controls Over the
contractor CACs:                                         Contractor Common Access Card Life Cycle,”
                                                         October 10, 2008, to improve policies and
 18 of 38 CVS operators interviewed had not
                                                         procedures are being implemented and are not
    taken the required training.
                                                         repeated in this report.
 Expiration dates for CACs were not always
    consistent with supporting documentation.
 24 of 37 Trusted Agent sponsors of
                                                         Management Comments and
    contractors approved issuance of CACs                Our Response
    without verifying the initiation of the              The Commander, United States Forces Korea
    required background investigation.                   did not provide comments on the draft report,
 Guidance for officials who approve and                 dated March 13, 2009. We request the
    issue CACs was not always clear on what              Commander to provide comments on the final
    type of identification cards should be issued.       report by July 9, 2009. The Director, Defense
 56 of the 168 terminated CACs for                      Manpower Data Center provided responsive
    contractors in our sample could not be               comments to the recommendations and is
    accounted for.                                       implementing corrective actions. The Director
Revising existing policy and issuing additional          also provided comments on the finding. See the
guidance will strengthen controls over                   recommendations table on page ii.
contractor CACs in Korea.
                                                     i
Report No. D-2009-086 (Project No. D2007-D000LA-0199.003)                June 9, 2009

Recommendations Table
Management                        Recommendations           No Additional Comments
                                  Requiring Comment         Required
Commander, United States Forces   1.
Korea
Director, Defense Manpower Data                             2.
Center

Please provide comments by July 9, 2009




                                             ii
Table of Contents

Results in Brief                                                 i

Introduction                                                     1

       Objectives                                               1
       Background                                               1
       Review of Internal Controls                              3

Finding. Common Access Cards Issued to Contractors in Korea      4

       Management Comments on the Finding and Our Response      13
       Recommendations, Management Comments, and Our Response   14


Appendix

       Scope and Methodology                                    16
              Prior Coverage                                    18


Management Comments


       Defense Manpower Data Center                             19
Introduction
Objectives
The overall objective of this audit was to determine whether controls over Common
Access Cards (CACs) provided to contractors in the Republic of Korea (Korea) were in
place and working as intended. Specifically, we determined whether DoD officials
issued CACs to contractors according to the requirements of the Contractor Verification
System (CVS), verified the continued need for contractors to possess CACs, and revoked
and recovered CACs from contractors in accordance with DoD policies and procedures.
See the Appendix for a discussion of the scope and methodology and prior coverage
related to the objectives.

Background
In October 2000 DoD began issuing CACs to active-duty personnel, reserve personnel,
civilian employees, and eligible contractors. DoD personnel and eligible contractors use
CACs as a general identification card and to gain access to DoD resources, installations,
and sensitive information. In addition, CACs allow DoD personnel and eligible
contractors to electronically sign and send encrypted e-mails to facilitate daily business
activity. Under the Geneva Conventions, the CAC also serves as an identification card
for civilians and contractors who accompany the Armed Forces during a conflict, combat,
or contingency operation.

Contractor CAC Life Cycle
The contractor CAC life cycle consists of four phases: application and approval, issuance,
reverification, and revocation and recovery. The application and approval phase begins
when a contractor requests a CAC through CVS. After the sponsor, the Trusted Agent
(TA), approves the application in CVS, the contractor reports to a Real-Time Automated
Personnel Identification System (RAPIDS) site to be issued a CAC. After issuance, a TA
must verify every 180 days that the contractor still needs a CAC. When the contractor no
longer needs or is authorized a CAC, the CAC is revoked and recovered. Finally,
RAPIDS personnel send the recovered CACs they receive from TAs or RAPIDS sites to
the Defense Manpower Data Center (DMDC) for destruction.

Systems Used To Process Contractor CACs
A memorandum from the Under Secretary of Defense for Personnel and Readiness
(USD[P&R]) titled, “DEERS/RAPIDS Lock Down for Contractors,” November 10, 2005
(hereafter the USD[P&R] Memorandum), mandated the use of CVS to apply for and
authorize a contractor CAC commencing in July 2006. CVS is a Web-based system that
feeds information on approved contractors into the Defense Enrollment Eligibility and
Reporting System (DEERS), the central repository for information collected about DoD
personnel and their authorized beneficiaries. However, DMDC did not enforce this
mandate until the end of October 2008, when a program change to the RAPIDS software
prevented operators from issuing CACs to contractors who could not be verified through



                                            1
CVS. RAPIDS is a system that retrieves contractor records from DEERS and prints the
information on CACs for issuance.

The DMDC Contractor Verification System User Manual (hereafter the CVS User
Manual), Version 2.0, December 2008,1 requires a TA, a U.S. citizen and Government
employee sponsoring a contractor, to use CVS to approve the application of a contractor
needing to obtain a CAC. The TA must do the following.

       Establish the contractor’s affiliation with the Government through contract
        requirements in accordance with the Federal Information Processing Standards
        Publication 201-1, “Personal Identity Verification (PIV) of Federal Employees
        and Contractors,” March 2006.
       Establish the contractor’s need for logical and physical access and the duration of
        access to DoD networks or facilities.
       Verify that contractors have had required background checks initiated.

Previous Audit Findings and Recommendations
Department of Defense Inspector General (DoD IG) Report D-2009-005, “Controls Over
the Contractor Common Access Card Life Cycle,” October 10, 2008, the first report in
this series, found that contractor CACs were not consistently approved, issued, reverified,
revoked, or recovered across DoD.

       Government sponsors had inadequate evidence to link contractors to a contract or
        justify a CAC expiration date.
       Some contractors received CACs without undergoing the appropriate background
        checks.
       RAPIDS personnel changed information approved by Government sponsors.
       DoD did not always recover revoked contractor CACs.
       The Army did not provide adequate oversight of thousands of CACs issued to
        contractors deploying to Southwest Asia.

Overall, the CAC life-cycle weaknesses found posed a potential national security risk that
could allow unauthorized access to DoD resources, installations, and sensitive
information. To tighten controls over contractor CACs, the report recommended
implementing improved DoD policies, procedures, and oversight as well as additional
system controls over CVS and RAPIDS.

The Office of the Secretary of Defense and the Army generally agreed with our
recommendations and began making improvements in policies and controls. In this
report we do not duplicate recommendations made in the prior report. However, we will
continue to monitor actions proposed by DoD to ensure their implementation.



1
 The DMDC CVS User Training Guide, Version 1.9.2, August 2007, which was in force during the audit
period, had similar guidance.


                                                 2
Review of Internal Controls
We identified internal control weaknesses in the administration of contractor CACs
related to the training of CVS operators, verification of contractor background checks,
and accountability for terminated CACs. Actions taken or planned by DoD in response
to DoD IG Report D-2009-005 should correct most of the problems except that DMDC
needs to establish a date by when it will prohibit personnel from becoming CVS
operators if they have not taken the required training. To further strengthen controls over
verification of contractors’ backgrounds and accountability for terminated CACs, USFK
should implement Recommendation 1., parts d. and e. We will provide a copy of the
final report to the senior official for internal controls at USFK.




                                             3
Finding. Common Access Cards Issued to
Contractors in Korea
Although supporting documentation for CACs issued to contractors working in Korea
was generally available, we identified the following internal control weaknesses and
areas where additional guidance could improve the administration of contractor CACs.

       At least 18 of 38 CVS operators interviewed had not taken the required training.
       Expiration dates for CACs issued in Korea did not always agree with supporting
        documentation.
       24 of 37 TA sponsors of contractors approved issuance of CACs without
        verifying the initiation of the required background investigation.
       Nine contractors in our sample received the wrong type of identification card.
       Of 168 terminated CACs associated with our sample of contractors in Korea,
        56 were not properly accounted for.

The weaknesses identified increase the risk of unauthorized access to DoD resources,
installations, and sensitive information. Establishing and implementing the DoD-wide
policy, procedures, and controls recommended in the prior DoD IG report on the
contractor CAC life cycle; clarifying DMDC guidance regarding the correct types of
identification cards to issue; and issuing additional policy guidance and controls for
USFK will strengthen controls over contractor CACs in Korea.

Analysis of CAC Data
To review controls over CAC applications and CACs issued in Korea, we requested data
from DMDC on CAC applications entered in CVS and on CACs issued from RAPIDS
sites in Korea for the year ended August 31, 2008. We combined these two data sets to
establish a universe of contractors to review. After we selected a random sample of
contractors, we determined that DMDC had incorrectly included dependents of
contractors (who were not issued CACs) and contractors not associated with Korea in the
populations provided. Therefore, we are unable to project from our sample to the total
population. However, we believe that the results of our review are representative of
procedures and conditions related to CACs applied for and issued to contractors in Korea.
We selected a random sample of 177 contractors from a data population of
2,601 contractor records representing contractors who had applied for or obtained CACs
in Korea during the audit period.2 See the Appendix for additional details regarding the
data populations and sample selection.

Training for CVS Operators
The CVS User Manual requires CVS operators, known as Trusted Agent Security
Managers (TASMs) and TAs, to complete annual certification training courses in order to


2
  Some contractors were issued more than one CAC during the period because a previous CAC was
terminated.


                                                 4
access CVS and perform their duties. However, CVS was not set up to prevent TASMs
and TAs from logging on to CVS before completing the required training. Interviews
with 38 TASMs and TAs in Korea associated with the contractors in our sample indicated
18 (47 percent) had not taken the required certification training. The lack of training
sometimes caused problems for TASMs and TAs in performing their required functions,
as the following examples illustrate.

      A TASM did not know how to transfer contractors to a new TA when the
       previous TA moved to another position. Therefore, instead of reassigning
       contractors, the TASM created new applications under his account.
      A TA did not use CVS to sponsor contractors who possessed CACs from prior
       years, and did not reverify these CACs as required.
      A TA cut up recovered CACs and disposed of them instead of turning them in to a
       RAPIDS site, as required.
      A TA gave his CVS username and password to his predecessor to use in
       completing a contractor application because the new TA had not taken the
       required training and was unfamiliar with CVS.

DMDC personnel stated that, beginning in January 2009, CVS operators started receiving
warnings when logging on to the system if they had not completed the required training.
However, to further strengthen this control, DMDC should modify CVS to prohibit TAs
and TASMS from logging on to CVS if they have not completed the required
certification training. DMDC personnel stated that they planned to implement this
control.

CAC Application and Approval
In accordance with the Federal Information Processing Standards Publication 201-1 and
the CVS User Manual, the TA must establish the contractor’s affiliation with the
Government and the person’s need for logical and physical access. We were able to
obtain sufficient documentation to support DoD affiliation for 170 of 177 contractors in
our sample. However, for the remaining seven contractors, we could not verify affiliation
with DoD for the following reasons.

      A TA completed a CVS application for a contractor based on an e-mail from
       another contractor rather than verifying the contractor’s affiliation with the
       Government.
      The TAs for two contractors could not provide any evidence of why the
       contractors received CACs in Korea. The CACs for both contractors had been
       terminated before our audit began.
      Three contractors were not in CVS, and no documentation was available to
       support their CACs.
      The TA for one contractor, a Korean national, could not provide adequate support
       for issuing her a CAC.

As for the 170 contractors whose affiliation with DoD we were able to confirm, sufficient
documentation was often available because many TAs were also the Responsible Officers


                                           5
(ROs) for their contracts. The TAs for 91 contractors also functioned as ROs (or direct
subordinates), overseeing contactors closely. These TAs had ready access to information
they needed to determine contractors’ affiliation with DoD and need for CACs.
According to USFK Regulation 700-19, “The Invited Contractor and Technical
Representative Program,”3 June 4, 2007, ROs should be geographically and functionally
situated to enable direct personal contact with the contractor being sponsored, certify the
contractor’s entitlements to logistics support, and maintain the supporting documentation.
If USFK had a policy requiring ROs or their direct subordinates to be TAs for contractors
working in Korea, when practical, USFK could strengthen controls over approval and
monitoring of contractor CACs.

USFK Regulation 700-19 requires approval from the Office of the Assistant Chief of
Staff for Acquisition Management (FKAQ) and the Status of Forces Agreement (SOFA)4
Joint Committee before invited contractors to Korea are granted SOFA status. SOFA
status normally entitles invited contractors who are “ordinarily” residents of the United
States to logistical support privileges. This regulation further requires the sponsoring
agency or RO to submit for FKAQ approval a copy of the contract information, a letter of
accreditation, and an Invited Contractor and Technical Representative Personnel Data
Report (USFK Form 700-19A-R-E). Upon approval, the contractor takes the required
forms to the RAPIDS site to obtain an Identification and Privilege CAC. A CAC with
privileges entitles the contractor to logistical support, which normally includes access to
the post or base exchange; Morale, Welfare, and Recreation facilities; and the
commissary.

USFK Regulation 700-19 requires contractors needing an identification card, logistical
support, and SOFA status to prepare and submit to FKAQ a USFK Form 700-19A-R-E
that has been approved by the contractor’s RO. FKAQ maintains this documentation,
which enabled us to verify the Government affiliation of many contractors if the TA did
not have the documents or was unavailable for interview. However, not all contractors
needing a CAC go through FKAQ. Contractors hired from the pool of retired military
personnel and dependents of invited contractors, military, or civilian personnel assigned
to Korea sometimes do not go through FKAQ because they already have an identification
card to access facilities on the military installation. Also, U.S. citizens and third-country
nationals who are residents of Korea working on a contract supporting USFK are not
necessarily eligible to receive an Identification and Privilege CAC and might not obtain
approval from FKAQ. An FKAQ official stated that this limitation has also hindered
assessment of the contractor population for a potential noncombatant evacuation
operation.



3
  For audit purposes, we did not differentiate between an invited contractor and a technical representative.
Some technical representatives were contractors. Others were representatives for commercial companies.
If these individuals needed CACs, they would use CVS.
4
  The SOFA is an international agreement between the United States and Korea envisaged by Article IV of
the United States Republic of Korea Mutual Defense Treaty. The SOFA discusses facilities, areas, and the
status of the U.S. Armed Forces in Korea.


                                                      6
FKAQ personnel stated that USFK may revise the regulation to extend its applicability to
every contractor performing services for USFK in Korea. We support this planned
revision to require FKAQ approval for all contractors working in Korea to obtain a CAC.
Once revised, the regulation will also help document validation of contractor CACs.

CAC Expiration
A memorandum signed by USD(P&R) and the DoD Chief Information Officer titled
“Common Access Card (CAC)-Changes,” April 18, 2002, allows CACs to be issued for
3 years or the individual’s term of service, employment, or association with DoD,
whichever is shorter. USD(P&R) Directive-Type Memorandum 08-003, “Next
Generation Common Access Card Implementation Guidance,” December 1, 2008,
updated the 2002 guidance. The new memorandum allows a CAC to be issued for the
duration of the contract, including unfunded options up to 3 years. (In Korea a CAC is
normally issued for the funded portion of the contract, usually 1 year or less.)

However, neither TAs nor RAPIDS operators used consistent criteria for entering the
CAC expiration date in CVS or RAPIDS. Although the expiration of most CACs was
based on the funded portion of the contract as shown on USFK Form 700-19A-R-E,
CACs for 62 contractors in our sample expired 30 days after the contract expiration date
shown on the form. Such inconsistencies occurred because CVS and RAPIDS operators
did not have clear guidance for CAC operations in Korea. Operators allowed the extra 30
days in accordance with USFK Regulation 700-19, which states that a contractor’s status
shall automatically be withdrawn 30 days after termination of a contract. The extra days
were given for a contractor to renew the CAC based on new contract funding or leave
Korea.

It is reasonable to allow a contractor some time to renew a CAC after the funded portion
of a multiyear contract expires. However, there is no basis for extending the expiration
of a CAC by 30 days for a completed contract. Therefore, USFK should clarify guidance
to all TAs in Korea emphasizing that the expiration date for a contractor CAC should not
be later than the completion of a contract.5 USFK may also wish to issue CACs for up to
3 years for contractors on multiyear contracts as allowed by Directive-Type
Memorandum 08-003.

Contractor Background Investigations
Of the 37 TAs interviewed during the audit, 24 did not verify the status of contractors’
background checks. Some of the reasons TAs gave for not verifying that a background
investigation had been initiated were the following.

       They believed some other USFK organization or the contractor had this
        responsibility.
       The contractor did not work on classified material.



5
 Guidance is not needed for RAPIDS operators because system changes completed in November 2008
prevent RAPIDS operators from changing the expiration shown in CVS when issuing a CAC.


                                                7
      They did not know what they were supposed to do.
      They were unaware that a National Agency Check with Inquiries (NACI), or the
       equivalent, must be initiated before the issuance of a CAC.

We used the Joint Personnel Adjudication System (JPAS), which provides real-time
information regarding security clearances, access, and investigative status, to check the
status of background investigations for contractors. According to information in JPAS,
no NACI had been initiated for 50 of the 177 contractors in our sample. After we issued
the draft report, we learned that JPAS may not contain information on background
investigations for some contractors who do not require access to classified information.
Therefore, the number of contractors with CACs who did not have a NACI initiated is not
certain. However, our interviews with TAs responsible for verifying that background
investigation requirements have been met indicate that contractors can obtain CACs
without going through the required investigations.

The CVS User Manual provides no guidance to the TA on how to determine whether a
proper background check has been initiated. In addition, CVS does not require TAs to
indicate contractor’s background status when completing the CVS application. In fact, the
system contains no field to indicate the status of a background check.

Federal Information Processing Standard 201-1 requires contractors seeking a CAC to
have an initiated NACI or an equivalent background investigation. At a minimum, the
Federal Bureau of Investigation National Criminal History Check (fingerprint check)
must be completed before a CAC can be issued. DoD Regulation 5200.08-R, “Physical
Security Program,” April 9, 2007, also requires a NACI or an equivalent investigation for
permanent issuance of the CAC.

DoD IG Report D-2009-005 raised a similar issue regarding the need for specific
background investigation requirements and standard procedures for confirming
background checks for contractors applying for CACs. The Under Secretary of Defense
for Intelligence noted in response to that report that an electronic system will be deployed
by the end of 2009 to facilitate electronic verification of background checks. The Under
Secretary also stated that his office is working on policy guidance that will outline the
investigative requirements for CAC credentialing throughout DoD. DMDC personnel
stated during our audit that the latest version of RAPIDS interfaces with JPAS but does
not prevent a CAC from being issued when there is no indication of a NACI in JPAS.

USD(P&R) Directive-Type Memorandum 08-003, which was issued during our audit,
gives further guidance on conducting background investigations of contractors, including
an authoritative list of background investigations that are equivalent to or exceed the
requirements of a NACI, and actions that should be taken by Government sponsors of
contractors requiring a CAC. However, until DMDC implements a system change
prohibiting CACs from being issued to contractors for whom a NACI has not been
initiated, USFK should provide guidance for TAs, outlining standard procedures to
confirm that a NACI (or equivalent investigation) has been initiated, as required by
Federal and DoD regulations. Such procedures could require TAs to obtain contractor



                                             8
verification that a NACI has been initiated, or to verify the contractor’s status at the local
personnel security office.

CAC Issuance
Before issuing a CAC to a contractor, RAPIDS operators should ensure at a minimum
that a contractor profile was established in DEERS through CVS and that the CAC, as
issued, correctly reflects the duration of the contractor’s work and the benefits the
contractor is entitled to.

Data Source for DEERS Profile
The USD(P&R) Memorandum designated CVS as an authorized source of contractor’s
data to be fed into DEERS as of July 31, 2006. However, at the time of our review, not
all contractor CACs had been entered in CVS. For example, a TA stated that she did not
use CVS to manage contractors needing to receive new CACs if the contractors received
their original CACs before CVS implementation. According to the CVS User Manual, a
TA should use CVS to sponsor applicants who have previously had CACs. In another
instance, a TA did not use CVS to authorize a CAC because he thought that use of CVS
was not required for a Korean subcontractor of a contractor authorized and invited by
USFK.

In both instances, RAPIDS operators issued CACs to contractors who were not entered in
CVS because the lock down mandated by the USD(P&R) Memorandum had not taken
place. According to DMDC, during November 2008, a system control was added to
RAPIDS that prevents RAPIDS operators from issuing a CAC to any contractor without
CVS verification. Therefore, we are not making any recommendation regarding the use
of CVS for approving CACs.

Types of Identification Cards
Of 177 contractors in our sample, 9 received inappropriate identification cards because
guidance for TAs and RAPIDS operators was not clear about the type of identification
card to issue.

Identification and Privilege CACs
Identification and Privilege CACs were issued to two entertainers and four summer-hire
student contractors who came to Korea to work under contracts supporting Morale,
Welfare, and Recreation for less than 3 months. (The audit universe from DMDC also
included 30 student contractors who received CACs but needed only physical access to
DoD facilities for less than 3 months.) The entertainers and students were ineligible for a
CAC based on:

      Air Force Instruction 36-3026(I), “Identification Cards for Members of the
       Uniformed Services, Their Eligible Family Members, and Other Eligible




                                              9
        Personnel,”6 December 20, 2002, and USD(P&R) Directive-Type
        Memorandum 08-003, which state that an Identification and Privilege CAC is
        issued to contractors who are stationed or employed overseas for 365 days or
        more; and

       USD(P&R) Directive-Type Memorandum 08-003, which further states that
        contractors are eligible for a CAC when they require physical access to multiple
        Government facilities on a recurring basis for at least 6 months or require both
        physical and logical access to DoD installations and networks.

According to the sponsoring TAs, these contractors did not need and were not given
access to DoD networks. Without a need for physical access for 6 months or the need for
both physical and logical access, these individuals should not have received CACs.
Rather they should have been issued a base pass and an appropriate ration card to obtain
access to USFK facilities. This was also the case of a contractor who was issued an
Identification CAC for 13 days. None of those seven contractors were eligible for any
type of CAC.

To ensure that only eligible contractors receive CACs and that they receive the correct
type of CAC, TAs and RAPIDS operators must be able to determine who is eligible for a
CAC and for what type of a CAC. However, the CVS User Manual does not list specific
criteria for CAC eligibility; it states only that TAs must establish a contractor’s need for
physical and logical access. Also, the RAPIDS User Guide issued by DMDC, while
stating that contractors are eligible for an Identification and Privilege CAC when going
on assignment overseas, is not clear about the duration of overseas assignments required
for a contractor to obtain an Identification and Privilege CAC. Because TAs and
RAPIDS operators use the CVS User Manual and RAPIDS User Guide as references for
their CAC operations, those documents should state the eligibility requirements for each
type of CAC to ensure compliance with DoD guidance.

Geneva Conventions CACs
Geneva Conventions CACs should be issued to “emergency essential” contractors
accompanying and supporting the Armed Forces during a conflict, combat, or
contingency operation. However, RAPIDS operators issued Geneva Conventions CACs
to two contractors in our sample who were not identified as emergency essential, partly
because the RAPIDS User Guide was not clear about the eligibility for a Geneva
Conventions CAC. The RAPIDS User Guide states that contractors accompanying forces
overseas for more than 1 year are entitled to a Geneva Conventions CAC, but does not
state what constitutes contingency conditions. To ensure that only eligible contractors
receive the benefits under the Geneva Conventions agreement, the RAPIDS User Guide
needs to provide clear guidance for RAPIDS operators to determine who is eligible for a
Geneva Conventions CAC.


6
  Air Force Instruction 36-3026(I) is a joint service regulation, also referred to as Army
Regulation 600-8-14, Bureau of Naval Personnel Instruction 1750.10B, Marine Corps Order P5512.11C,
and Commandant Instruction M5512.1.


                                                 10
Misclassification of Contractors
Of the 2,601 contractors in our audit universe, 146 contractors (5.6 percent) were
inappropriately assigned a General Schedule (GS) pay grade because RAPIDS did not
include controls to limit pay grade entries as GS-Equivalent or Other for contractors.
Misclassification of contractors can affect their entitlements and access to information.
Contractors may receive housing available only to U.S. Government personnel and gain
access to sensitive information that may be restricted to Government employees.
Misclassification of pay grade could be prevented by system controls that limit entry
options to the pay grade class designated for contractors. In response to DoD IG
Report No. D-2009-005, regarding CACs erroneously showing GS pay grades, the
USD(P&R) stated that DMDC will modify RAPIDS so that the printed face of all
contractor CACs will show Other for the pay grade. Therefore, we are not making any
recommendation to correct misclassification.

CAC Reverification
The CVS User Manual states that the TA should reverify a contractor’s need for a CAC
every 180 days. When a contractor reaches the 150-day mark, the TA receives e-mail
notification from CVS to reverify the contractor’s need for the CAC. The TA has 30
days after this notification to reverify, or the contractor’s CAC will automatically be
revoked.

USFK has a policy whereby invited contractors working in Korea are issued a CAC only
for the funded portion of a contract, normally not more than 1 year. This control reduced
the risk of unauthorized use of CACs, compared with the multiyear contracts or the
maximum 3-year period allowed by DoD.

The majority of TAs interviewed stated that they took steps to reverify each contractor’s
employment status; however, they did not normally maintain documentation to support
their reverification. Therefore, an audit trail was not available for us to confirm that TAs
had assessed each contractor’s continued need for a CAC at the time of reverification.
However, as previously discussed, having a TA who is also the RO facilitates verification
of a contractor’s status. Requiring TAs to be ROs would further reduce the risk of
contractors having unauthorized CACs after their association with the Government has
terminated.

CAC Revocation and Recovery
The CVS User Manual states that the TA should collect and return revoked and expired
CACs in accordance with standard procedures. Upon receipt of such CACs, the RAPIDS
Site Security Managers return the CACs to DMDC. When DMDC receives the
terminated CACs, DMDC updates their status in the Inventory Logistics Portal, the
system for inventory and logistic management of CAC card stock. This action indicates
that the CACs have been revoked, recovered, and prepared for destruction.
In Korea, ROs are responsible for recovering CACs when contractors finish their work or
leave Korea. USFK Regulation 700-19 requires ROs to collect and return identification
cards to the issuing authorities. ROs must document turn-in of the identification cards on


                                            11
USFK Form 700-19A-R-E, Part IV, and submit the closeout form to FKAQ. However, in
discussions with us, FKAQ personnel indicated that they do not receive copies of the
completed USFK Form 700-19A-R-E for contractors finishing their work or leaving
Korea.

Of the CACs issued to contractors in our sample, 168 were terminated.7 DMDC verified
that 112 of these CACs had been recovered and returned to DMDC. Of 56 CACs not
returned, only 4 were coded as lost. In responding to the draft report, DMDC stated that
it cannot account for all CACs returned, because some CACs returned to DMDC are no
longer functional and are worn beyond recognition. However, in our opinion the main
inability to account for all CACs occurred because TAs and ROs did not comply with the
CVS User Manual or USFK Regulation 700-19. Some TAs or ROs we interviewed did
not even know that they were responsible for recovery of CACs. One TA stated that he
cut up expired CACs but did not document which CACs he destroyed. Enforcing the
requirement for TAs to take the annual certification training should make operators aware
of their responsibilities and provide full accountability.

In response to DoD IG Report No. D-2009-005, DMDC agreed to include a message for
contractors applying for a CAC in CVS, informing the applicants of their responsibility to
return terminated or expired CACs to a RAPIDS facility or to specific Government
personnel (such as a TA). In addition, USD(P&R) agreed to implement a process to
periodically inform TAs when contractors have not turned in revoked CACs. USD(P&R)
was working on guidance requiring local commands to ensure that retrieval of CACs is
part of the normal check-out process. When fully implemented, these actions will further
strengthen controls over recovery of CACs.

USFK should enforce and monitor compliance with USFK Regulation 700-19 to ensure
CACs are properly recovered when contractors do not need them for official business
with the Government.

Compensating Controls Over Physical Access
To gain access to military installations in Korea, CAC holders must register their CACs
with the Defense Biometric Identification System. Security personnel at the access
control point use the Defense Biometric Identification System to verify the authenticity of
all CACs. When a CAC is suspicious or questionable, the access control point security
personnel verify its authenticity by using the fingerprint scan function of the system.
Therefore, the Defense Biometric Identification System precludes possible use of invalid,
lost, or stolen CACs for installation access. Also, to be granted access to the post or base
exchanges and commissaries, CAC holders must present a valid CAC and a Ration
Control Card at the same time. To obtain the Ration Control Card, contractors must
register in the Defense Biometric Identification System. These internal controls




7
 Some contractors had more than one CAC terminated for various reasons, such as changes in information
or issuance failure. Other contractors did not have a CAC that was terminated during the audit period.


                                                  12
compensate for control weaknesses and reduce the risk of unauthorized access to DoD
installations and privileges in Korea.

Conclusion
Although supporting documentation for CACs issued to contractors in Korea was usually
available, strengthening controls and issuing additional guidance could improve the
administration of contractor CACs. Compensating controls, such as the use of the
Defense Biometric Identification System and review of contracts by FKAQ, helped
reduce the security risk. After we issued DoD IG Report D-2009-005, DoD issued
guidance and made system changes to improve the administration of contractor CACs.
DoD has stated that additional policy and system improvements will be forthcoming.
These improvements should resolve most of the weaknesses identified in this report.
However, implementing the recommendations in this report should resolve the remaining
weaknesses and further reduce potential national security risks posed by unauthorized
access to DoD resources, installations, and sensitive information.

Management Comments on the Finding and Our
Response
DMDC Comments
The Director, DMDC did not believe that we had sufficient support for our
characterization of the weaknesses in controls in the previous CAC audit (D-2009-005) as
a “potential national security risk.” A specific example in the previous report regarding
the potential risk gave the impression that an e-mail address contained in a CAC could
allow a contractor access to assets. A CAC is only an identification card that alone
should not provide its holder access to DoD networks or facilities. The requirement
shown in DoD Instruction 8500.2, “Information Assurance (IA) Implementation,”
February 6, 2003, to identify contractors by their e-mail addresses is assigned to network
administrators, who establish e-mail accounts and manage network access.

The Director stated that JPAS does not contain suitability determination information for
individuals who do not require access to classified information. Therefore, the DoD IG’s
use of JPAS alone to verify background investigations for contractors failed to account
for all of the systems that contain suitability information for contractors.

The Director stated that the audit report implied that DMDC was able to account for all
CACs that were physically returned to DMDC. However, sometimes returned CACs
cannot be identified because they are no longer functional or are worn beyond
recognition.

Our Response
The DMDC disagreement with our use of the phrase “potential national security risk”
was related to a previously issued audit report. Report D-2009-005 identified numerous
deficiencies and gave several examples to back up the audit conclusions. The conclusion
of the report was that “Overall, CAC life-cycle weaknesses pose a potential national


                                           13
security risk that may result in unauthorized access to DoD resources, installations, and
sensitive information worldwide.” We consider the example cited in the DMDC
comments regarding contractor e-mail accounts as one of many potential weaknesses
identified in the previous audit report. For example, if a contractor with a DoD (.mil)
e-mail account is not identified as a contractor, U.S. Government personnel may send the
contractor information that is only authorized for U.S. Government employees and could
be a potential national security risk.

We used JPAS as one source of information on the status of required investigations for
contractors. Information provided to us by DMDC after we issued the draft report
indicates that JPAS may not have all information on the suitability determinations for
contractors. Therefore, we modified our report accordingly. However,
Recommendation 1.d. remains the same because it is the TA’s responsibility to verify
that a NACI has been initiated.

We did not mean to imply that DMDC could account for all CACs that were returned.
Our audit focus was on whether TAs were properly accounting for or returning CACs
that were expired or invalid. We merely stated how many of the terminated CACs
DMDC could account for. We clarified our report to indicate that some returned CACs
cannot be identified because they cannot be read.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Commander, United States Forces Korea:

       a. Require a Responsible Officer or a direct subordinate to be the Trusted
       Agent for contractors sponsored in Korea, when practical.

       b. Revise United States Forces Korea Regulation 700-19 to require all
       contractors working in Korea who require a Common Access Card to obtain
       approval from the Office of the Assistant Chief of Staff, Acquisition
       Management.

       c. Issue guidance to Trusted Agents approving contractor Common Access
       Cards in Korea emphasizing that the expiration date for the card must not
       be later than the date of contract completion.

       d. Require Trusted Agents to verify that a National Agency Check with
       Inquiries has been initiated before they approve a contractor’s application
       for a Common Access Card in the Contractor Verification System.

       e. Enforce and monitor compliance with United States Forces Korea
       Regulation 700-19 to ensure contractor Common Access Cards are properly
       recovered and turned in to the appropriate Real-Time Automated Personnel
       Identification System site when the cards expire or are no longer needed for
       official business with the Government.


                                           14
Management Comments Required
The Commander, USFK did not respond to the draft report. We request the Commander
to provide comments on the final report by July 9, 2009.

2. We recommend that the Director, Defense Manpower Data Center:

       a. Modify the Contractor Verification System to prohibit Trusted Agent
       Security Managers and Trusted Agents from using the system if they have
       not taken the required certification training.

Defense Manpower Data Center Comments
The Director, DMDC agreed and stated that by August 2009 DMDC will require
operators to complete certification training. After a 30-day warning period, TAs and
TASMs who have not completed the required training will be locked out of their CVS
accounts.

       b. Clarify the Real-Time Automated Personnel Identification System User
       Guide by listing eligibility requirements that contractors must meet for the
       Identification and Privilege Common Access Card and the Geneva
       Conventions Common Access Card.

Defense Manpower Data Center Comments
The Director, DMDC agreed and stated that as of March 19, 2009, the RAPIDS 7.4 User
Guide includes updates to clarify both eligibility and documentation requirements for
contractors.

       c. Clarify the Contractor Verification System User Guide to help a Trusted
       Agent determine whether or not a Common Access Card or a base pass
       should be issued to a contractor who needs physical access to Government
       facilities for short periods.

Defense Manpower Data Center Comments
The Director, DMDC agreed and stated that DMDC, in coordination with the Defense
Human Resource Activity, will update the CVS User Guide to improve the explanation of
CAC eligibility by August 2009.

Our Response
DMDC comments on all parts of Recommendation 2. were responsive, and no additional
comments are required.




                                          15
Appendix. Scope and Methodology
We conducted this performance audit from September 2008 through February 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We interviewed the Site Security Managers and Verifying Officials regarding their
procedures and operations at the 10 RAPIDS sites in Korea: U.S. Army Yongsan
Garrison, Camp Red Cloud, Camp Stanley, Camp Casey, Camp Humphreys, Camp
Henry, Osan Air Base, Kunsan Air Base, Chinhae Naval Base, and the Navy Personnel
Support Detachment at Yongsan.

At our request, DMDC provided four data sets that corresponded to each phase of the
contractor CAC life cycle:

       CVS applications associated with Korean CVS site operators or CACs issued or
        terminated by a Korean RAPIDS Site from September 1, 2007, through
        August 31, 2008 (application data);
       CACs issued from the Korean RAPIDS site from September 4, 2007, through
        September 12, 2008 (issuance data);*
       CVS reverifications associated with Korean CVS site operators or CACs issued or
        terminated by a Korean RAPIDS site from September 1, 2007, through
        August 31, 2008; and
       CACs terminated from the Korean RAPIDS site from September 1, 2007, through
        September 12, 2008.*

After a preliminary review of those data sets, we decided to use the application data and
issuance data to obtain a universe of contractors. After merging two data sets and
eliminating duplicates, we sent data on the universe of 3,568 contractors to the DoD IG
Quantitative Methods and Analysis Division for selecting a statistical random sample of
252 contractors. As the audit progressed, we found that the CAC issuance data provided
by DMDC incorrectly included contractor dependents, who received dependent
identification cards rather than CACs. Therefore, we had to delete 967 records from the
audit universe, reducing the population to 2,601. (Note that the audit universe is greater
than the number of contractors issued CACs in Korea as of August 31, 2008
[approximately 2,300], because the audit universe included contractors who were issued
CACs that may have terminated before August 31, 2008.) As we examined the
supporting documentation for CACs issued, we also found that DMDC had incorrectly


*
 We asked DMDC for CVS and RAPIDS information for the year ended August 31, 2008. However,
DMDC used slightly different dates, as shown above. The use of different dates did not affect our audit
conclusions


                                                    16
included some contractors who were not issued CACs in Korea. This reportedly
happened because DMDC incorrectly selected contractors associated with a TA who had
at one time been associated with Korean contractors. As a result, we reduced the sample
to 177 contractors. Therefore, we were not able to project from our sample to the
universe. Consequently, we analyzed the results for our random sample and presented
our findings based on this analysis. However, because the contractors were selected at
random, we reasonably believe that the results are representative of the universe.

For each contractor in our sample, we tested specific steps in the CAC life cycle. For
contractors whose applications DMDC data indicated were processed through CVS, we
also interviewed the TAs, if available. We interviewed 38 TASMs and TAs (many
TASMs also functioned as TAs) responsible for sponsoring contractors in Korea to
determine their functions, what training they had taken, and what type of documentation
they had to support CACs. Because some of the TAs did not maintain sufficient
documentation, and some TAs who had sponsored contractors had left Korea, we had to
obtain a large amount of supporting documentation from the USFK Office of the FKAQ.
This office is responsible for reviewing contracts to determine whether they qualify under
the Invited Contractor and Technical Representative Program as discussed in USFK
Regulation 700-19.

We provided the Social Security numbers of the contractors in our sample to a DoD IG
security officer and a security officer with USFK, who reviewed information in JPAS to
determine whether the required NACI background investigations on the contractors had
been initiated.

Because the DoD IG issued Report D-2009-005 on controls over the CAC life cycle
during our audit, we also reviewed the findings, recommendations, and management
comments in that report; we discussed these in our report where appropriate.

Use of Computer-Processed Data
We relied on DMDC to extract data from CVS and DEERS to identify contractors who
obtained CACs in Korea. We did not perform a formal reliability assessment of the
computer-processed data. However, we did validate computer-processed data based on
documentation obtained from contracting personnel, TAs, and TASMs in Korea and
concluded the data used were reliable. We did not find significant errors between the
computer-processed data and source documents that would preclude use of the computer-
processed data or change our audit conclusions. However, as previously discussed, we
had to remove some individuals from the audit universe because they did not fall within
the scope of our audit.

Use of Technical Assistance
We obtained assistance from the DoD IG Quantitative Methods and Analysis Division.
The Quantitative Methods and Analysis Division assisted in drawing a sample from a
universe of contractors whose CAC cards were issued in Korea. However, we are unable
to project from the sample to the universe because the original universe contained
individuals and contractors who were out of the audit scope, as previously discussed.


                                           17
Prior Coverage
During the last 5 years, the Government Accountability Office, the DoD IG, the Naval
Audit Service, and the Air Force Audit Agency have issued several reports discussing
CACs. Unrestricted Government Accountability Office reports can be accessed over the
Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Naval Audit Service reports are not available over
the Internet. Air Force Audit Agency reports can be accessed from .mil domains over the
Internet at https://wwwd.my.af.mil/afknprod/ASPs/cop/Entry.asp?Filter=OO by those
with Common Access Cards who create user accounts.

Government Accountability Office
Government Accountability Office Report No. GAO-07-525T, “Stabilizing and
Rebuilding Iraq: Conditions in Iraq Are Conducive to Fraud, Waste, and Abuse,”
April 23, 2007

DoD IG
DoD IG Report No. D-2009-005, “Controls Over the Contractor Common Access Card
Life Cycle,” October 10, 2008

DoD IG Report No. D-2008-104, “DoD Implementation of Homeland Security
Presidential Directive-12,” June 23, 2008

Navy
Naval Audit Service Report No. N2005-038, “Common Access Card Implementation,”
April 8, 2005

Air Force
Air Force Audit Agency Report No. F2008-0005-FD2000, “Controls Over Contractor
Identification,” April 2, 2008
        This was a summary report based on 14 reports from bases. One of those 14 base
        reports was for the 51st Fighter Wing at Osan Air Base, Korea.
        Report No. F2008-0011-FBP000, “Contractor Identification Access Controls,”
        February 27, 2008

Air Force Audit Report No. F 2007-0010-FB4000, “Air Force Use of Common Access
Card for Physical Access,” August 24 2007
       This was a summary report based on three base-level reports and audit work at 12
       Air Force installations.




                                          18
Defense Manpower Data Center Comments




                 Click to add JPEG file




                                19
Click to add JPEG file




               20
                           Final Report
                            Reference




Click to add JPEG file



                         Revised, page 8




                         Page 11




               21
                           Final Report
                            Reference




                         Information added
                         to clarify (see
                         page 12)




                         Page 17




Click to add JPEG file




               22
